           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Reviews of                   Date:    October 27, 2010
           PHMSA’s Oversight of Pipeline Safety

  From:    Lou E. Dixon                                           Reply to
                                                                  Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    PHMSA Assistant Administrator
            and Chief Safety Officer

           In recent months, Congress has expressed concerns over how the Pipeline and
           Hazardous Materials Safety Administration (PHMSA) oversees movement of
           hazardous materials through the Nation’s pipelines. These concerns were prompted
           by the pipeline rupture that occurred in Michigan in July, leaking more than 800,000
           gallons of oil, and last month’s pipeline explosion in San Bruno, California, that killed
           8 people and destroyed 37 homes. As with many of the Nation’s pipelines, in both of
           these accidents the infrastructure was several decades old.

           Over the last decade, PHMSA has implemented critical pipeline safety regulations to
           improve its oversight of the pipeline industry. These include requiring pipeline
           operators to develop and implement integrity management programs to assess and
           repair weaknesses in pipelines that, in the event of a leak or failure, could affect
           populated areas, areas unusually sensitive to environmental damage, and
           commercially navigable waterways. PHMSA has also partnered with states to
           oversee operators’ compliance with these regulations through the State Pipeline
           Safety Program, which delegates oversight and enforcement responsibility to the
           states. However, these most recent incidents call into question the effectiveness of
           Federal and state oversight as well as pipeline operator programs.

           Therefore, in the coming weeks, we will initiate a series of audits to examine
           PHMSA’s oversight of (1) the State Pipeline Safety Program, (2) pipeline operators’
           federally mandated integrity management plans, and (3) current and planned
           programs to address human factors and other aspects of control room management
           where supervisory control and data acquisitions systems are used.
                                                                                    2

We will contact your audit liaison to schedule an entrance conference for the first of
these audits next month. If you have any questions, please contact Jeffrey B.
Guzzetti, Assistant Inspector General for Aviation and Special Program Audits, at
202-366-0500

                                          #

cc: PHMSA Associate Administrator
     for Pipeline Safety
    Martin Gertel, M-1
    Gordon Delcambre, PHA-30
